4
I

OCKLE

2311 Douglas Street CCA + E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B Bileds *  contact@cocklelegalbriefs.com
1-800-225-6964 i Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1678

DANIEL Z. CROWE; LAWRENCE K. PETERSON;
and OREGON CIVIL LIBERTIES ATTORNEYS,
an Oregon nonprofit corporation,
Petitioners,

v.

OREGON STATE BAR, a Public Corporation, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF AMICUS CURIAE
OF LAWYERS UNITED INC. IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4625 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of June, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

af nates. | NOTARY-State of Nebraska A
af nates. | ( ba ee? i € 2h J /

‘My Comm. Exp. September 5, 2023

 

Notary Public Affiant 41095
